OIG Audit Report GR-60-09-010

Compliance with Standards Governing Combined DNA Index System Activities at the Wyoming State Crime Laboratory, Cheyenne, Wyoming
Audit Report GR-60-09-010
April 2009
Office of the Inspector General


Executive Summary


The Audit Division, Office of the Inspector General has  completed an audit of compliance with standards governing Combined DNA Index  System (CODIS) activities at the Wyoming State Crime Laboratory  (Laboratory). The Federal Bureau of Investigation’s  (FBI) CODIS program blends forensic science and computer technology to provide  an investigative tool to  federal, state, and local crime laboratories in the United States, as well as those from selected  international law enforcement agencies.  The CODIS program allows laboratories  to compare and match DNA profiles electronically to assist law enforcement in  solving crimes and identifying  missing or unidentified persons.1 The FBI’s CODIS Unit manages CODIS and is  responsible for developing, providing, and supporting the program to foster the  exchange and comparison of forensic DNA evidence. 
The FBI  implemented CODIS as a distributed database with hierarchical levels that  enable federal, state, and local crime laboratories to compare DNA profiles  electronically.  The hierarchy consists  of three distinct levels that flow upward from the local level to the state  level and then, if allowable, the national level.  NDIS, the highest level in the hierarchy, is  managed by the FBI as the nation’s DNA database containing DNA profiles  uploaded by law enforcement agencies across the United States.  NDIS enables the laboratories participating in  the CODIS program to electronically compare DNA profiles on a national  level.  The State DNA Index System (SDIS)  is used at the state level to serve as a state’s DNA database containing DNA  profiles from local laboratories and state offenders.  The Local DNA Index System (LDIS) is used by  local laboratories.
The objectives of our audit were to determine if the:  (1) Laboratory was in compliance with the  NDIS participation requirements; (2) Laboratory was in compliance with the  Quality Assurance Standards (QAS) issued by the FBI; and (3) Laboratory’s  forensic DNA profiles in CODIS databases were complete, accurate, and allowable  for inclusion in NDIS.  The results of our audit are below. 

We found that CODIS is properly safeguarded,  Laboratory personnel requirements are being fulfilled, and policies and  procedures related to NDIS are available and followed by Laboratory staff.  We did not identify any instances of  non-compliance with the NDIS participation requirements we reviewed.
We reviewed the most recent internal and  external audits and Laboratory policies and procedures related to sample  processing, sample security, sample retention, and subcontracts.  We did not detect any instances of non‑compliance  with the QAS.
The Laboratory’s 50 forensic DNA profiles that we reviewed were complete, accurate,  and allowable for inclusion in NDIS.

The results of our audit are  discussed in detail in the Findings section of the report.  Our audit scope and methodology are detailed  in Appendix I of the report and the audit criteria are detailed in Appendix II.
We discussed the results of our  audit with Laboratory officials and have included their comments in the report  as applicable.


 

Footnotes

DNA, or deoxyribonucleic acid, is genetic material  found in almost all living cells that contains encoded information necessary  for building and maintaining life.   Approximately 99.9-percent of human DNA is the same for all people.  The differences found in the remaining  0.1-percent allow scientists to develop a unique set of DNA identification  characteristics (a DNA profile) for an individual by analyzing a specimen  containing DNA.





 




Return to OIG Home Page